Daniel Everett (SBN 268967)
15 Boardman Place Suite, 2
San Francisco, CA 94103
Tel: 415/891/9472
Fax: 415/864/3389
In Pro Se
DANIEL EVERETT
SUPREME COURT
UNITED STATES OF AMERICA
) US SC No.__________

IN RE

)

Cal SC No. S262090
) APPENDIX

DANIEL EVERETT
DATE:
TIME:
DEPT:
Trial Date:

PETITIONER.
MEMBER OF THE STATE BAR OF
CALIFORNIA

APPENDIX
DOCUMENTS PRESENTED
Cal Sup. Ct. Sept. 9, 2020 Order
Hearing Dept. Order for Inactive Enrollment

PAGE NO.
Al
A2-19

May 2019 Notice to Show Cause

A20-22

May 2019 Amended Notice to Show Cause

A23-25

August 2019, Status Conf. Order (Hrg. Dept)

A26-27

September 2019, Status Conf. Order (Hrg. Dept)

A28-29

Cal. BPC 6007(b)(3)

A30-33

(Rel Portions Unabridged)

Cal. State Bar Rules of Proc.

l

(Rel Portions Unabridged).... A34-48

Exerpts of Certified Transcripts

A49-54
Page 1

STATEMENT
1. All statements made here are true and correct or I believe them
to be so and are otherwise made under penalty of perjury and all
statements made here are true and correct or I believe them to
be so and this filing is for a just and legitimate purpose, and
all documents contained here are true and correct or copies of
originals.
Date:
6.21.21
j

I
i

i

■

t
i

Page 2

k

\
000001

SUPREME COURT

FILED

[
■

SEP

9 2020

■;

State Bar Court No. 19-TT-30212
!:
i

Jorge Navarrete Clerk

f

i

;

S262090

i

!
>
s!
i

Deputy

i:

I

IN THE SUPREME COURT OF CALIFORNIA

i

i!'

i
i

En Banc

r!•
\

} £
i

s3
CD
o_

In the Matter of
DANIEL EVERETT,

i

i

(

CO
i

:

£

i

15

c

1

:
!:

CO

r

o

00
LO
LO
CO
CO

o

:;•

A Member of the State Bar.

CM
O
CM

CM
O)
O
CM
O
LO

CD

i 6

Petitioner’s application to file the Petition for Review and all exhibits thereto
under seal is granted. (Cal. Rules of Court, rules 8.45, 8.47(c); Rules Proc. of State Bar,
rule 5.10(A).) The clerk of this court is directed to file the Petition for Review and all
exhibits thereto under seal.
The State Bar’s application to file its Answer to the Petition for Review and any
exhibits thereto under seal is granted. (Cal. Rules of Court, rules 8.45, 8.47(c); Rules
Proc. of State Bar, rule 5.10(A).) The clerk of this court is directed to file the Answer to
the Petition for Review and any exhibits thereto under seal.
The State Bar’s request for judicial notice is granted.
Petitioner’s motion for an order compelling the production of evidence is denied.
Petitioner’s July 28, 2020, and August 5, 2020, motions to vacate the State Bar
Court’s December 2, 2019, order are denied.
The petition for review and application for stay are denied.

CM
<D
V)
CD

O

<

CANTIL-SAKAUYE
ChiefJustice

i

i
?r

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 141 of 196
000002

t
?

.A*»

t

* “

.*3

■

DEC 0 2 2019
STATE BAR COURT
CLERICS OFFICE
LOS ANGELES

■■■ . r

<

CONFIDENTIAL
STATE BAR COURT OF CALIFORNIA

i
4

HEARING DEPARTMENT - SAN FRANCISCO
i

'In the Matter of

)

Case No. SBC-19-TT-30212-YDR

)

DANIEL EVERETT,

)
)
)
)

State Bar No. 268967.

MODIFIED DECISION AND ORDER
OF INVOLUNTARY INACTIVE
ENROLLMENT (Bus. & Prof. Code,
§6007(b)(3)

>

i

Introduction
This matter is before the court on its amended notice to show cause (NTSC) regarding
whether Daniel Everett (Respondent) should be involuntarily enrolled as an inactive member of
the State Bar of California on the grounds that he, because of mental infirmity or illness or
because of the habitual use of intoxicants or drugs, is (1) unable or habitually fails to perform his
duties or undertakings competently or (2) unable to practice law without substantial threat of
harm to the interests of his clients or the public. (Bus. & Prof. Code, §6007, subd. (b)(3); Rules
Proc. of State Bar, rule 5.191(D).)

i

Pertinent Procedural History
i

On December 2, 2016, the Office of Chief Trial Counsel (OCTC) filed a Notice of
Disciplinary Charges (NDC) in case No. 15-0-12951. The charges involve three client matters
and include allegations of violations of rule 3-110(A) and 3-700(DXl) of the Rules of
Professional Conduct of the State Bar of California ; section 6103 [five counts]; section 6068(a);
■ section 6068(o)(3); and section 6106. Thereafter, on September 7, 2018, the State Bar filed a
second NDC in case No. 16-0-10277. The charges in the second NDC include allegations of
i

*
i
I

*

*m.. S

•«.-

.

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 142 of 196
000003

violations of rule 5-200(B), section 6068 (b) [two counts], section 6068(d), section 6068(i),
section 6103 and section 6106. The two cases were consolidated.
On May 15,2019, this Court issued a notice to show cause regarding whether
Respondent should be enrolled inactive pursuant to section 6007, subdivision (b)(3), of the
Business and Professions Code. An amended notice to show cause was thereafter filed on May
16, 2019 (NTSC). The Court appointed Jonathan I. Arons to represent Respondent in this
proceeding. (Rules Proc. of State Bar, rule 5.192(A).) This Court further ordered that
Respondent undergo an examination by a psychiatrist and a gastroenterologist (or internist) to
take place no later than July 8, 2019, and that each physician report their respective findings by
July 15, 2019.
The parties were ordered to meet and confer in an effort to reach a stipulation as to which
physician would examine Respondent and to report to the Court no later than June 10, 2019. An
in-person status conference was set for June 17,2019.
OCTC filed responses to this court’s NTSC on June 5, 2019, June 12,2019 and June 14,
2019.
A status conference was held on,June 17, 2019. The parties were ordered to stipulate to
agreed-upon medical professionals to perform the medical examination by July 1, 2019.
On August 7, 2019, another status conference was held in which Respondent and all
counsel were present. One or both parties identified the following medical professionals as
being available to examine Respondent: Dr. Theodore Gradman - Psychologist; Dr. Diane
Everstein - Psychologist; Dr. Cho - Gastroenterologist; Dr. Linda Nguyen- Gastroenterologist.
OCTC identified Dr. Everstein as being available on multiple days and at two locations:
Cupertino and San Francisco. Respondent and his counsel identified and selected Dr. Gradman
to perform Respondent’s psychological evaluation. The Court ordered that Dr. Gradman
-2-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 143 of 196
000004

evaluate Respondent’s psychological state no later than August 16,2019, and that the medical
report be completed and submitted to the Court by August 26, 2019.
OCTC filed further responses to this Court’s NTSC on August 26,2019 and September 5,
2019.
An in-person status conference was held on August 29,2019. Respondent and his
counsel were present. The Court ordered that Respondent file and serve the report from Dr.
Gradman by September 5, 2019. The Court further ordered that OCTC file a further
supplemental response to the NTSC by September 6,2019 and that Respondent’s response
would be due by September 20,2019.
On September 4,2019, Respondent forwarded an email to Dr. Gradman and copied his
counsel and OCTC. By his September 4th email, Respondent informed Dr. Gradman that
Respondent was revoking any authorization for Dr. Gradman “to disseminate any info about me
[Respondent] gleaned from the meeting between us [Respondent and Dr. Gradman].”
This Court held another status conference on September 13, 2009. The Court did not
grant Respondent’s counsel’s request to be relieved of his appointment as Respondent’s counsel
and was ordered to file a response to OCTC’s Supplemental Response or, if unable to do so,
Respondent’s counsel was ordered to file a declaration setting forth all reasons for his inability to
file the response on Respondent’s behalf. OCTC was also ordered to deliver OCTC’s five NTSC
responses to Respondent by overnight mail or by messenger.
On September 23, 2019, Respondent's counsel Jonathan Arons, filed a declaration
pursuant to the Court’s September 16th order. In his declaration, Mr. Arons stated that he
provided each and every supplemental filing by OCTC to Respondent either by email or in
person. Additionally, on August 29,2019, Mr. Arons informed Respondent that he needed

-3-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 144 of 196
000005

certain information no later than September 6,2019, which would allow Mr. Arons sufficient
time to prepare a response by September 20, 2019, as ordered by the court. Respondent agreed.
Furthermore, in Mr. Arons’ declaration, he stated that the next communication he
received from Respondent was on September 4,2019, which included the email to Dr. Gradman
purporting to revoke any authority to disseminate the psychological evaluation report prepared
by Dr. Gradman. The email also accused Mr. Arons of colluding with the State Bar and of
making false representations,1 The same day at 6:44 p.m., Respondent sent Mr. Arons another
email telling him to cease any future representation of him. Mr. Arons also stated that on
September 6, 2019, he informed the Court and OCTC’s counsel that he would request to be
relieved as counsel due to the breakdown of the attorney-client relationship between Mr. Arons
and Respondent.
On or about September 23,2019, Respondent also filed a declaration under penalty of
perjury in response to the Court’s September 16, 2019, order.
Findings of Fact
On December 2,2016, OCTC filed a NDC in case No. 15-0-12951. The charges involve
three client matters and include allegations of violations of rule 3-110(A) and 3-700(D)(l) of the
Rules of Professional Conduct of the State Bar of California ; section 6103 [five counts]; section
6068(a); section 6068(o)(3); and section 6106. Thereafter, on September 7, 2018, the State Bar
filed a second NDC in case No. 16-0-10277. The two cases were consolidated. The charges in
the second NDC primarily involve Respondent’s filing of personal bankruptcy petitions in
numerous jurisdictions including, Northern California, Western Washington state, New Jersey,
District of Puerto Rico, and the District of Virgin Islands. The charges include allegations of

i

Respondent never provided any support for these allegations, which appear to be

specious.
-4-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 145 of 196
000006

violations of rule 5-200(B), section 6068 (b) [two counts], section 6068(d), section 6068(i),
section 6103 and section 6106.
On May 15, 2019, this court issued a notice to show cause regarding whether Respondent
should be enrolled inactive pursuant to section 6007, subdivision (b)(3), of the Business and
Professions Code. An amended NTSC was thereafter filed on May 16,2019. In that order, the
court noted that the issues to be addressed in this proceeding are whether, due to his actual or
perceived mental infirmity or illness, Respondent is:
(1)

Unable or habitually fails to perform his professional duties or undertakings

competently, or
(2)

Unable to practice law without substantial threat of harm to the interests of his

clients or the public.
Office of the Chief Trial Counsel’s Responses to the Notice to Show Cause
On June 5,2019, the OCTC filed a response to this court’s NTSC. The response stated
that in OCTC’s view that Respondent is - because of his perceived or actual mental infirmity or
i

illness - unable to practice law without substantial threat of harm to the interests of his clients.
In support of this view, OCTC stated that the record in the underlying matters 15-0-12951 and
16-0-10277, were replete with Respondent’s own statements in which he attributed his inability
to comply with court orders due to his illness. In addition, OCTC’s exhibits further reveal that in
other courts where Respondent was counsel of record for his clients, Respondent, on numerous
occasions, has raised his health conditions) as a justification for failing to appear and/or missing
filing deadlines. Specifically, OCTC alleged that Respondent has raised his illness(es) in
criminal matters in which he is defense counsel, for his failure to appear at scheduled court
appearances which occurred in San Mateo Superior Court cases, People v. Mejia, case No. 17NF-009990-A and People v. Fennel, case No. 17-NF-013694-A.

-5-

'Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 146 of 196
000007

On June 12, 2019, OCTC filed an updated response to inform the court about the status of
the parties’ efforts to select physicians to examine Respondent. OCTC reported that requested
that counsel for Respondent first obtain names of Respondent’s treating physicians in order for
them to be ruled out as physician to perform the required medical examination. OCTC further
reported that a list of Respondent’s Kaiser in-network treating physician(s) had not been received
from Respondent.
OCTC suggested that Respondent’s counsel could retain a non-treating physician from
the Kaiser network to perform the examinations. Respondent’s counsel advised OCTC that
Respondent was concerned about the issuance of the NTSC and the requested exams. OCTC
further noted that Respondent had not yet filed a response to the NTSC.
On June 14, 2019, OCTC filed a supplemental response to the court’s NTSC which
attached a motion filed by Respondent to proceed in Forma Pauperis in the Ninth Circuit Court.
In Respondent’s motion he stated “I’ve been in poor health and may be dying! Physical
disability very very very ill need medical... I suffer from a physical disability that has kept me
out of work lately.” Respondent further swore under penalty of perjury that his answers on the
form were true and correct.
On August 26, 2019, OCTC filed a further supplemental response to the NTSC.
Attached to OCTC’s supplemental response were hearing transcripts from the Los Angeles
Superior Court in the case of People v. Jordan Knighten, case No. LA080210. In Knighten,
Respondent was the subject of a contempt/sanctions hearing held on August 26, 2016. At the
hearing, Respondent raised his health issue to explain his late arrival at court. Although
Respondent was not held in contempt, the Knighten court sanctioned Respondent $750 for failing
to make timely appearances.

-6-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 147 of 196
000008

Also attached to OCTC’s response were November 30,2016, hearing transcripts in the
matter of People v. Robert Anthony Cook, case No. 05-160548-4, Superior Court of Contra Costa
County. In this case, Respondent requested an oral motion to continue the matter for medical
reasons. The Cook court noted that the matter had been scheduled to commence at 1:30 p.m. and
that it did not commence until 3:00 p.m. The court further noted that Respondent had never
disclosed his medical condition as a potential problem to the court and that the court was already
concerned about his performance in the matter. Respondent informed the court that he had been
admitted to the emergency room on November 9th, and that he was put off work. In response,
the court stated:
“You did not tell the People this. You did not tell the Court this. You left your whole
file here in September. I am appalled by your lack of professionalism, I am confirming
your trial date of December 12th. Thank you.”
Trial was set to commence in the Cook case on December 12, 2016, however Respondent
failed to appear. An order to show cause was issued and the trial was continued to December 14,
2016. On December 14,2016, Respondent filed a petition for writ of prohibition and immediate
stay of the proceedings. Respondent’s petition stated that he was suffering a relapse of a medical
condition in late August and September of 2016, and additionally, that he suffered another
relapse in November of 2016. Respondent’s declaration filed in support of his motion further
stated, “I have been hampered in my ability to prepare for Mr. Cook’s case because of a physical
disability, a gastrointestinal condition.”
On January 17,2017, a pretrial conference was set in the Cook case. The hearing
transcripts reveal that the court noted that Respondent failed to appear for court four times.
Specifically, on November 8,2016 for another pretrial conference, November 30th for a .
readiness conference for trial, and then for a jury trial date of December 12, 2016. Both the

-7-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 148 of 196
000009

November 8 and November 30 failures to appear were due to medical reasons while the
December 12 failure to appear was due to car trouble.
On January 18, 2017, after failing to appear for another pretrial conference, the Cook
court issued another order to show cause against Respondent. And again, on January 26, 2017,
the Cook court issued an additional order to show cause against Respondent for failing to appear
on the previous order to show cause.
In People v. James, San Mateo Superior Court, case No. 17NF014604A, Respondent was
sanctioned by the Court for failing to timely appear at several hearings. The court discussed not
issuing monetary sanctions due to Respondent’s unavailability due to his medical condition.
Similarly, in People v. Magana, San Mateo Superior Court, case No. 16SF005960A, Respondent
notified the Court that he was running late for a hearing due to a health issue.
On April 22,2019, Respondent was removed as defense counsel of record in People v.
Menifee, Santa Clara Superior Court, case No. Cl 365457. The Menifee court set forth numerous
grounds for Respondent’s removal from the matter stating that Respondent had engaged in a
pattern of misconduct that was disruptive and substantially impaired the criminal proceedings.
Specifically, the Menifee court noted the following regarding Respondent:
“During the competency proceedings, delays and disruptions were
occasioned by [Respondent’s] failure to provide a witness list and pretrial
discovery between June and January, that’s June of 2017, January of 2018. It
includes obtaining a continuance for the purpose of filing a writ, without ever
filing a writ, and failing to appear for pretrial readiness [conference] on December
15th of 2017.

-8-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 149 of 196
000010

In this matter, after the preliminary hearing and before criminal
proceedings were suspended, counsel twice failed to appear on the master
calendar, master trial calendar or to arrange for substitute counsel, and that was
September - June 9, 2014, September 22,2014.
Since proceedings were reinstated, this matter has been on calendar 22
times. On almost a third of those occasions, that is, seven, counsel [Respondent]
did not appear or appeared so late that the case had already been called and
continued.
I am not including in these numbers the failures to appear that resulted in
the issuance of an Order to Show Cause In Re: Contempt, or any of the failures to
appear or late arrivals during the litigation of that order to show cause before
Judge Barrett.”
Most importantly, the Menifee Court found that Respondent had not provided adequate
representation for his client. With respect to that finding the Menifee Court stated:
“But most disturbing to this court are the questions surrounding
[Respondent’s] representations and the declaration of Paul Kangas, submitted by
[Respondent], to explain investigative efforts undertaken in this case.
According to the prosecution’s declaration, Mr. Kangas was actually
contacted on April 1 Ith, and had stated he had no recollection of this case or of
signing that declaration.. [Respondent] was given the opportunity to, but has not
produced Mr. Kangas in court to address this issue, in spite of the court’s
instruction that he do so.
Finally, I find that [Respondent] has not provided adequate representation
for his client.

-9-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 150 of 196
000011

First, the failure to investigate and secure the attendance of witnesses. I
am well aware and I think the law is very clear that the decision about which
potential witnesses and how many of them will be called is one that is reserved to
trial counsel and the court should generally not interfere in any way with that
choice.
However, trial counsel must undertake the burden of investigating the
facts surrounding criminal charges in a manner sufficient to make an informed
decision on that subject and the basics for that tactical decision must be within the
realm of reasonable competence.
The uninformed decisions made here not to investigate and to secure the
presence of witnesses who can provide a potentially meritorious defense is
incompetent and inadequate representation.”
In compliance with this Court’s prior status conference order, OCTC filed a supplemental
response to the NTSC on September 5,2019. OCTC’s supplemental response includes copies of
various pleadings that Respondent has filed primarily in numerous bankruptcy courts. The
common theme in all of the pleadings is Respondent’s claim that due to physical ailments, he has
been unable to respond to court filings in a timely manner.
Although not all of Respondents filings in bankruptcy court are related to the current
disciplinary proceedings, they too are indicative of his claims of a physical disability.
Respondent’s bankruptcy filings in various federal courts, including the Northern District of
California (San Francisco and San Jose), the District of Puerto Rico, District of Virgin Islands,
Western District of the State of Washington have all included requests from Respondent for
either a continuance or some other scheduling issue due to Respondent’s claim of a physical
ailment or disability.

-10-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 151 of 196
000012

Respondent’s Purported Termination of Appointed Counsel
In an email dated September 4, 2019, Respondent copied OCTC on an email sent to Dr.
Gradman on that date. In the email, Respondent informed Dr. Gradman that Respondent was
revoking any authorization for Dr. Gradman to conduct Respondent’s psychological evaluation
or to report on his findings to the Court. On the same day, Respondent sent Mr. Arons another
email telling him to cease any future representation of him. Instead, he asked Mr. Arons to file a
Marsden hearing.
On September 13,2009, the Court held another status conference. Mr. Arons informed
the Court and OCTC’s counsel requested to be relieved as counsel due to the breakdown of the
attorney-client relationship. Respondent’s counsel was not relieved of his appointment as
Respondent’s counsel and was ordered to file a response to OCTC’s Supplemental Response and
if unable to do so, to file a declaration stating the reason(s) he was unable to file a response.
OCTC was also ordered to deliver the five OCTC responses to Respondent by overnight mail or
by messenger.
On September 23,2019, Respondent’s counsel filed a declaration pursuant to the Court’s
September 16, order. In his declaration, Mr. Arons stated that on August 29, 2019, Arons
requested that Respondent provide him with descriptions of each and every matter set forth in the
OCTC’s August 26, 2019, OCTC supplemental response. Arons further stated that Respondent
was informed that Arons needed the requested information by September 6, 2019, to allow
sufficient time for Arons to prepare Respondent’s response, due September 20, 2019.
Respondent’s Response to Court Order
In his September 18, 2019, response, Respondent objected to the Court making him
obtain doctor evaluations, produce documents and filings without help from an attorney even
though Respondent essentially fired Mr. Arons on September 4,2019. On the same day that
-11-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 152 of 196
000013

Respondent filed his declaration in State Bar Court, he also attempted to file a removal petition
in the U.S. District Court for the Northern District of California . Due to a “prefiling order [filed
February 1,2019] and determinfation] that the action is clearly not subject to removal,”
Respondent’s petition was dismissed by order filed September 26, 2019.
On or about September 23, 2019, Respondent also filed a declaration under penalty of
peijury in response to the Court’s September 16, 2019, order. Basically, Respondent declared
that on September 4, 2019, Respondent sent a letter to Dr. Theodore Gradman revoking any and
all consent given to conduct a medical evaluation. Respondent also stated that he received an
email on September 13, 2019, from Mr. Arons explicitly saying he would no longer file
documents on behalf of Respondent because Respondent had missed a deadline.
Conclusions of Law
Business and Professions Code section 6007(b)(3) provides that a licensee shall be
enrolled as an inactive licensee in the following case:
“(3) After notice and opportunity to be heard before the State Bar Court, the State Bar
Court finds that the licensee, because of mental infirmity or illness,... is (i) unable or
habitually fails to perform his or her duties or undertakings competently, or (ii) unable to
practice law without substantial threat of harm to the interests of his or her clients or the
public....”
Respondent has attempted to avoid participating in these disciplinary proceedings for
several years. Respondent has managed to delay the proceedings in various ways. First, he has
sought to delay the proceedings by using his perceived physical ailments as an excuse not to
participate or to continually delay the proceedings. Second, he has delayed the proceedings by
refusing to undergo or attempting to bar this Court from learning the results of a psychological
evaluation performed by Dr. Gradman, pursuant to Business and Professions Code section 6053,
if performed. Third, he has filed numerous petitions attempting to remove the discipline
proceedings to federal court or by filing petitions in the bankruptcy court seeking protection

-12-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 153 of 196
000014

under the automatic stay provisions. Finally, without good cause, Respondent attempted to
terminate the services of his counsel appointed in this matter and Respondent now argues that he
is unable to represent himself without assistance of counsel.
Perceived Illness
Throughout these proceedings, Respondent’s physical ailments have been a primary
focus of his pleadings and filings. Either by requesting an accommodation or continuance due to
his inability to participate in the proceedings due to a medical condition.
In Respondent’s own pleadings filed with this court in May 7, 2019, he requested
pauperis status on the following grounds, “I am flat broke. I am barely getting by. My medical
expenses have risen and risen due to illness after illness - in part brought on by the stress of
these proceedings.”
On May 14,2019, on the first day of trial, shortly before opening statements,
Respondent, as he has done several times other occasions in the past, appeared to lie on the
courtroom floor and asked to be taken to the hospital by ambulance. After the paramedics
arrived in courtroom and asked Respondent to explain his symptoms and his condition,
Respondent stated “1*11 tell you later.” In speaking with his social worker at Kaiser after this
incident, the court was informed that Respondent was released from the emergency room at the
hospital the same day. Respondent was contacted by the court and ordered to appear at trial the
next day at 10:00 a.m. Instead of appearing at trial at 10:00 a.m. the next day, Respondent again
went to the emergency room at 8:30 a.m. and never again reported for trial or contacted the
court.
Most illustrative of Respondent’s perception that he suffers from a grave illness is
Respondent’s belief that he is “dying.” In Respondent’s Motion and Affidavit for Permission to
Proceed in Forma Pauperis before the Ninth Circuit Court of Appeals, dated June 10, 2019,

-13-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 154 of 196
000015

Respondent stated under penalty of perjury the following: “Fve been in poor health. May be
dying!”
Avoidance Measures
Business and Professions Code section §6053 provides:
“Whenever in an investigation or proceeding provided for or authorized by this chapter,
the mental or physical condition of the licensee of the State Bar is a material issue, the
board or the committee having jurisdiction may order the licensee to be examined by one
or more physicians or psychiatrists designated by it. The reports of such persons shall be
made available to the licensee and the State Bar and may be received in evidence in such
investigation or proceeding.”
At the August 29,2019, status conference, the court ordered that Respondent file and
serve the report from Dr. Gradmanby September 5, 2019. Yet, in an email dated September 4,
2019, Respondent informed Dr. Gradman that Respondent was revoking any authorization for
Dr. Gradman to conduct a psychological evaluation. By revoking any authorization for Dr.
Gradman to provide this Court with his report, Respondent is purposely depriving the court of its
ability to properly evaluate Respondent’s physical condition. As such, Respondent’s failure to
undergo such an examination may be considered as evidence in determining whether Everett
should be transferred to inactive enrollment pursuant to Rule 5.193(B).
Respondent has also attempted to delay his discipline proceedings in various ways: 1)
Respondent petitioned the California Supreme Court on July 9,2019, for a writ of habeas corpus
with request for stay. The petition was denied on September 25, 2019; 2) on September 4, 2019,
Respondent attempted to fire his court-appointed attorney by informing his counsel to cease any
future representation of him then complained that he was not able to produce documents, obtain
doctors evaluations and prepare filings without the help of an attorney. (R’s Decl. in response to
September 19, 2019 order, p. 4.); 3) Respondent filed a Notice of Removal in the U.S. District
Court for the Northern District of California on September 23,2019; 4) when convenient and in
an effort to discourage Dr. Gradman from reporting to this Court, Respondent erroneously stated
-14-

.Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 155 of 196
000016

I

that the bankruptcy code’s automatic stay is applicable to this case (R’s Deck in response to
September 19, 2019 order, p. 9) however, these proceedings are not be subject to the automatic
stay. {Cooper v. State Bar {1987) 43, Cal.3d 1016 [ attorney discipline proceedings were not
automatically stayed upon attorney’s service of notice of bankruptcy petition, in that proceeding
was one by governmental unit to enforce its police or regulatory power].); 5) Respondent filed a
motion to disqualify this judge assigned to this discipline proceeding on September 23, 2019,
which was stricken as untimely on September 25,2019.
Causing Substantial Harm to Clients, the Public and the Administration of Justice
Respondent’s conduct shows that he is unable or habitually fails to perform his duties
competently, or is unable to practice law without substantial threat of harm to the interests of his
client or the public, due to Everett’s perception that he is gravely ill. As discussed infra, in the
case of People v. Jordan Knighten, Los Angeles Superior Court case No. LA080210,
Respondent was the subject of a contempt/sanctions hearing held on August 26,2016. Although
Respondent was not held in contempt, the court sanctioned him in the amount of $750 for failing
to make timely appearances.
Similarly, in the case of People v. Robert Anthony Cook, Superior Court of Contra Costa
County case number 05-160548-4, Respondent requested an oral motion to continue the matter
for medical reasons. The court noted that the matter had been scheduled to commence at 1:30
p.m. and that it did not commence until 3:00 p.m. Trial was set to commence in the Cook case
on December 12,2016, however Respondent failed to appear. An Order to Show Cause was
issued and the trial was continued to December 14,2016. On December 14,2016, Respondent
filed a petition for writ of prohibition and immediate stay of the proceedings. Respondent’s
declaration supporting his motion stated, “I have been hampered in my ability to prepare for Mr.
Cook’s case because of a physical disability, a gastrointestinal condition.” The hearing

-15-

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 156 of 196
000017

transcripts reveal that Respondent failed to appear four times for trial. Eventually, after another
Order to Show Cause was issued against Respondent, he filed a motion to disqualify the Judge
from the proceeding.
In People v. James, San Mateo Superior Court, case No. 17NF014604A, Respondent was
sanctioned by the Court for failing to timely appear at several hearings. The Court discussed not
issuing monetary sanctions due to Respondent’s unavailability due to his medical condition.
Finally, in People v. Menifee, Respondent was removed as counsel of record Santa Clara
Superior Court, case No. Cl365457. That court set forth numerous grounds for Respondent’s
removal from the matter stating that Respondent had engaged in a pattern of misconduct that was
disruptive and substantially impaired the criminal proceedings. The court noted that Respondent
had failed to appear for hearings numerous times. Most important is the fact that the Court found
that Respondent had not provided adequate representation for his client.
Respondent’s refusal without good cause to obey this Court’s order to undergo and
complete a physical and mental examination is evidence this Court can consider in determining
whether Respondent should be transferred to inactive enrollment. While the failure does not in
itself warrant a transfer, the overwhelming additional evidence as above listed supports such a
determination. The evidence of Respondent’s perceived illness, his numerous attempts at
delaying the proceedings and his demonstrated inability to perform his duties competently, in
large part, based on his perceived illness(es), pose a substantial threat of harm to his clients, the
public and the administration ofjustice.
Orders
This Court grants the oral motion of Respondent’s counsel to be allowed to withdraw
from any further representation of Respondent in this matter and directs that Respondent’s

-16-

•• t*

•f

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 157 of 196
000018

I

I
I
I

....

.

a

, counsel file his request for payment, in the required format and with any necessary supporting
documentation, as soon as practicable.
'\

The staff of this court is directed to provide a copy of this order to Respondent via

i

r

Respondent’s membership records email address at the same time that the order is served by
mail.
Finally, based on this Court’s further review of the evidence and case law, this Court
declines to abate either of Respondent’s two pending disciplinary proceedings. While

i

i

Respondent has not assisted his counsel in his defense, it has not been established by a
i

i

preponderance of the evidence that Respondent lacks the mental competence to assist his counsel

i

** in his defense. {See In The Matter ofRespondent L (Review Dept. 1993) 2 Cal. State Bar Ct.
* Rptr. 454,463.) Therefore, the Court will set a status conference in each pending disciplinary
proceeding
Order of Involuntary Inactive Enrollment
For all of the above reasons, this Court orders that Daniel Everett, State Bar No. 268967,
„

shall remain enrolled involuntarily inactive pursuant to section 6007, subdivision (b)(3),
effective three (3) calendar days from the service of this Court’s original decision and order, filed
v

November 27, 2019. Daniel Everett will remain involuntarily enrolled as an inactive attorney
■

under this order until he makes, and the State Bar Court grants, a petition for transfer to active

i

I

enrollment (Rules Proc. of State Bar, rule 5.205 et seq.) and until the order granting the petition

i
i

I

for transfer to active enrollment becomes final and all required fees have been paid (Bus. & Prof

I

Code, § 6007, subd. (b)(3)).
r

*

i

J

i

<|
I

'Dated: December ,2- ,2019

f/ETTE D. ROLAND
idge of the State Bar Court

i,

I

-17P

V

• -*

V-

I

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 158 of 196
000019

.*

CERTIFICATE OF SERVICE

!

[Rules Proc. of State Bar; Rule 5.27(B); Code Civ. Proc., § 1013a(4)]
*V
f>

•

»

I am a Court Specialist of the State Bar Court of California. I am over the age of eighteen and
not a party to the within proceeding. Pursuant to standard court practice, in the City and County
of Los Angeles, on December 2,2019,1 deposited a true copy of the following document(s):
MODIFIED DECISION AND ORDER OF INVOLUNTARY INACTIVE ENROLLMENT
(Bus. & Prof, Code, §6007(b)(3)
in a sealed envelope for collection and mailing on that date as follows:
1^1

by first-class mail, with postage thereon fully prepaid, through the United States Postal
iService at Los Angeles, California, addressed as follows:
JONATHAN IRWIN ARONS
DANIEL EVERETT
. LAW OFFICE OF DANIEL EVERETT LAW OFC JONATHAN I ARONS
15 BOARDMAN PL STE 2
220 MONTGOMERY ST STE 1077 .
SAN FRANCISCO, CA 94103-4724 SAN FRANCISCO, CA 94104-3432
by email, addressed as follows:
danieleverett@danieleverettlaw.com
jia@aronslaw.com
maria.OTOpeza@calbar.ca.gov

[x]

by interoffice mail through a facility regularly maintained by the State Bar of California
addressed as follows:
Maria J. Oropeza, Office of Chief Trial Counsel, San Francisco

I hereby certify that the foregoing is true and correct. Executed in Los Angeles, California, on
December 2, 2019.
ElizabethJAlvarez
Court Specialist
State Bar Court

I
I
i

I

tra r-t ■ rv
Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13,
re? «?rzu

* fcL.«-w.^r 'T‘r:--v-.T."-:

i

..

p'Be1$0NflD,ENTIAIi

. 000020

9'
k

•J

FILED

c

■
M

1

8

MAY 15 20B --

*

^STATE MR COURT CLERK’S OFFICE1
SANFRANCJSCO

IP

iSTATE BAR COURT OK CjULIFORNIA
•

HEARING DEPARTMENT - SAN'FRANGlSCO

'In the Matter .of'

;)

rCase No.T- SBC ^5Sp2lf
c NQTIci.TO

DANIEL EVERETT;

)
*
>
;)
£
*)

f

■State Bar No. 268967.

l:)

■

■T

t

SHOW'GAUSE RE:;
TRANSFER:OF'MEMBER TO'INAG-TIVE
EN'rOLEMENT-STATUS 1UNt>ER
BUSINESSANDPROFESSIONS CODE
rSECTiON 6007, subSiVia6n^B){3);;[Ruies
Procuof sWjar;?fuIe'5':ii90, St Se$J;
rNOT®0F:STl®^€ONFERENCE

5

5
a

*

*

»

•

8

;todeterminewheferPanielEyerettf(Respondent)‘,'MemberNo.268967,ish6iild1be gfirolfeci

8

^ife^ti^-imder^Busincss^dRrofessionsCocieTsecticin^OO^^ubdivisiori

brlJSs^^imSs1;

!thatherauetg
-V.,

M

ttofeTsraraferiBlfgf!

t

competently, or;
[2)' ^jnableftprpracScelaw without

interests offflsiclients
i

^Ke^ublicif

i

^cjpa^e^must me-ahd^e:a fesponse"to
■

55'Jkysiim service pltKisSfl&l ^uies^of ProcWofM
^6:ro®^ctCTmM!iKiAist^b^fe€aiiseie^-t5 irffafejds^^'rt^iasea]
ion ^ov^leW^&spo^ehtTsyaried;anai ohgSmg actipnsrtecen?i:o avoid tHe discipiinary
iprocg^^ing in ;CSS6 iijGBVf15^-12951 and 1610=jpi77;(Gpns:J
2®a(®;oMwWilgg^®£^|ai',SI]' furjfhet^^chSs®Sfl^s)®% ttiisvsouree.
*

r

tn

v

■ *

my

m

*

I
ft

ft

c
I C^5 .
£13
■
•a m
ID
Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 165 of 196*

f

ftbft gny

8

tm

i

000021

*
u

T

i;

Pursuant to rulc:5,192, it'is ordered thaWlic'foIloOTng attorney is appdiiitea to represent
K

ifes^n’deniihiffisim®ive ^nn)iTtnent-proceedmg;':-jonShanJ, 'AronsjfE&f., ilOOBusK Street^

ft

r

■SanFfaiiciscb, jSA 94104;'(4l"51.957-r8r8r Jbnath^'Aronsj'Esq: wi I lservewi thoutexpense to
.

*

rr

p

^

^^

iRespondent, feut-wlljberoon^ensafoa by prbei^ftjfe^iMTfpfreason'ableloxpen^s^andJees.

proceeding; this .Gourt’Orders^ex^inadon;pfRespondenftyapsychiatrist:£md'a
i

[gStro^feroioglstjbr intemstJi'tb^t^eypiaCe^y^ftd HiGtMri'My 8;'20l:9:. ifSee Business and
PrdfessionsCbde^ctimv;6Q53^

physician^slofepbrtKis/her

;fihdin&-as;to:
(
H

i2)whetherdue:to'his:mentalan^

ft

" fwith6ut substanlial fitfeal bfdiann to &e inter'ests bfhi^clienls7dTdie^pu'blic.
THerparticsrare ordered to meet and fconier in an effo rt fb'reach" a;siipulatiqn‘as to whi ch ■
flfis CbiMftqi ia^^^JunedO^^iS.
jfe5nT^^;smtuCc^efrric?e is^^tMSb^,Fbl3^.Jn^isj^ur^^.^pveh
»>

referenced pafe^Mpjnfc on June 17-, MJ§!;
Z

!

miSlSG ORDERED.
/■ fZ

a

j ■&'-

Dated:' |May

h

f

e-

t

*1

a

L l

YVETTE D.ROJ^AND
(Judge df the State Bar Court

Tm

W:

ft

f.ftT^TTg.

^If^rf^tH^oure issues S notice
.to;
:obey anbrderof tHexouil fortheattbrney to undergbra;pilysical;dr mentalexairiination -issued
undef B^iness and Professibris;Cdde'Section 6053 and;mle 5;’68,jhat failure may be considered
tas/evidence ib.^etefmininfWfether^e,attorney should be transferred;;t6;ihacti ye enrollment
But'theifailuredoes’not^
'(See rule 5.li3 (B).)
» i

if-2-?

«
JUn

■

I •

■ wi

V

n ■ »"

a ■

»P*

ft

“oct ts

«. □

n,n e.

cu> u . a ■ Mi JU
Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 166 of 196

i

V

000022

<a "mBmmffi&PFjSEffljm
'gbp # ^
*
r.

«

r

■
■

i

[life irocrwf^ejiajjlklelfplii; Code Civ.- Proc.r § ffgdfeljj;

V

)•

V

-

■

*

■

Specialist of® §SteB^G6uft SfiCaliteSah lam Bvei^tfeage^ipeen^.
Sureuptitqtst^arJ^uHlp^d^yiiff theCi^W^i^unt)^
;San,Francisco,- dnlvlay fTSj |2t) l1??‘t^!^ppsiti&y5n^A^p^^^e."f0rio^«ri^^peviftient(s);'

i;

>
f

k

g

■ '^EAlION^OQjl^ubTdivision ^^^fRules^foc' ^ State iafj.rule I.C90^^seq.]^
^OTiGE^Frs"TAWSCOtJE®lNC¥ ^ ^

m

\«_ ^

"

^

__

__

'"

jaff S ^led^wIspJfof^i^ct^,pd,!f^!r^6n.^^3^® fcSTSffis?
|E

*

Sen tOCfelfS, wltH!rem'rnTreceiptTequ'eSte^ through
,thed3mted Stotes'Fostal-Sbrvice arSan Fr^crsco^TCalifornia^addressed-as folloWs: '
t

.

DANIELfEVERETT
fiA^EFiCE,6F;DSNIEL«VEREiTT
3P5 bSar^manee Ste&I
SAftFRA^ClSGOj CA: g$T03U 4724

t

I

*

B

[by^^fi?d,ffl^l/N6,”Jl96"i905Bmi'I [1007 3306; wfereffim^ieceipt/fequesteai feip,
tHei0nllff;S©teS;PBst3 SemMTat San
■

(JONATHAN,IRWIN ARONS; ...
LAWOFC JONATHAN^. ARONS
,1 OOiBUSH S3DSTE 9 18
S^N FRANCISCO, iCA' '9410i- 3950=
9

M

\

te

by‘emaiI-/addr,essed':as"Tdl]ows:;
Maria:Orbpeza(^calbar~Ga.'gov
v

*

‘

*

-------------------------------

-----------

danleleveretu^anieTeverettlawrGom7 .

«

v

;

ii ia@arons1 aw:com •

a

I

I

■ B

L8y;mt'eMffi^;;ffin|titf.0.Ugh3l©ilIi)'TeguiafIyiffiaintainS3. By die;S tateiBar;of;Ga 1 ifo’rriia1,
addressed'as {follows: "
r
•

I

I

,

M?£lA ^OR^FEM; ghScement,
II h^bylcertify^Halfhe foregoing'is tnie ahcl.correct. Executed in^SanEfancito, <^iFqm% on
;Ma>~15; 2019. ' '
. .... '
r^r\-'- ""—
&
•i 1

m

nt

v l •Vi
■ .Bernadette Molina
.Court Specialist
rStateBarXourt

T.

i

“
I

-

■ a* .

a r*!. »

• »»

m+t »>!JA «£* _

k

aa w»ii* ijii

anr!t

5.

»

b

i a

■ "Pf* *j

sr»

■

A

ri

- -fc—

*1 *7* *■ i7*C7n“

.

i

*

■

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 1|^Q||p|[]^J\[[J^L
000023
‘l

*>

a

w

1

FILEI

3

0

3

•
m

STATE BAR COURT OF CALIFORNIA
t

HEARING DEPARTMENT-SSAN FRANCISCO

*
H

It

.InffiefflMfcof
^

H

"

■).

ij

)

j

¥|

DANlEb EVERETT,

’*

9

4p
■V
t
•i

;Case:No.: rSBGl9:TT-302l2
AMENDED NOTICE TO SHOW CAUSE
:RE: TRANSFER OF MEMBEKTO
'
INACTIVE ENROLLMENT STATUS'
UNDERBUSINESS AnD.PRQFESSIONS
CODE .SECTION 6007, Subdivisibn (b)(3)
[Rdles Proc. ofiStatc Bar* rule;5.190, et seq.];
NOTICE OF STATUS CONFERENCE

*

;Upon:ife;own'mdioVfius 6qurtjinds t^at profablexause existsto institiite a-proceeding
wfiethef^lniefEydStT^Resfofiffent), J^^b^So:S689?^ ^HouidFelempiliE
T

:ihactiy0'u5defjBusmess tfnftProTessiprisGqlJe^secfo
;thathe,diie to mVntal'infinnityTSr ilfncss, isl
Wabre'orlTabitu^Tyfa^sto'performhisprolessional'duties'orimdet^ings

m

s

fcqmRetently;:oP
__

"
a

_____

____»

___

_

(2)Tiinab1etopractice law^witHoutsubstantial thrcatofhaitn'to'thg interests qfhfcdients5
a

prthfpubjiO;1

@efprf^mustjSejMid7serve^J response to£tfiisl^fotice“to' SHowSause
a

"So daysrafef“seryicfe ofThis'WfSG1, tRuie$>off>roe^
*■'

»

%

'.

p.h

iff-,

tjj*1-1

i«_fc

j,

~L-

*'

J

** •

t....

1 Tliecoun’s'detei^'mdibn^arprobablecauseexiststoinstitutetkisprqceediiig'rrbased
/on OTrovemew:ofRefppnkent?s^yaried^d:dngoirg actioris'^talc^i tb iwid;6pmpiiance with]
idi&aMiSes'.^ipeafances, etc. in ffie^iseipilna^rpfoceedihg in case~Hos. J:5-!S]4295f|wia ijfc®10277 (eons.):
f

V ■»

• A

^

i

!

F l^JP

U-

no

•

*15

»«

1

I

.^

i

*'

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 168 of 196.

1

(

000024

I1

/
■i

SuSsuSntSb£uIe :5.'192;/it is bMeredlhatOiefpllowing;attomey:isapppihted;tbjrepresent

«

Responcierit:irl this in^ti^TOllment^6c©e3mg: JoriathaK il.,ArbnsJrEs’q.lOO^BiTsh^lree^

fl

l

•"

■S^p^te?s®^s^papte^!afa&^te®pSraMpSi^e^assas®i tip,
As Respondent’s menial and/or physical epniJitfoii isgmaferial^spinliife
^froc^ing]ffisi6ol^brHe&air?ex5rain^onTofeResp6n4ent:::by/a;psycKiffist,an3l;ai
»*

g^ra«pT^ise(o£iniffls9y|oMe|l^e gyr^latera^fuly'^-5® §• pP®Mfi<il$hcr

9

Professions tWsectibn <5.Q53,j- By'July.lS^^

3

3

^fiSngsSTtS?: ij wigfe^ueSto Resj^tfem’s^ntal Snd/oF^h^iciWwdlS^Ke^^gnf
■.IspnableprSabitualjy InMp-pjfpplisprp^
2) ^effiefSueS hi^raeiffiffidTorgHySicai
* wthouBsutfstimiafWeatbfhimnt^

iT&l^p^iesiarc!: 5^bred^m^t1nd§on@

sn^TCpbrtto &£mvm iaasteJe®® f&JaffiW.
t

^IniEerspn^stosfcpnference ipcfetfefffe-go
^referenced inatter at ftYSO'jfcm; 6nJune 17, MlSt

ft

a

a

ITiIS jSD ORDERED.

r ¥M
:

:■

ri

<

1

:Datea::M'ay:i,-20i?.

9

1

ED. ROLAND ^
JuWd^St^BaTCourt

\

1

■

^ Unless 6l^a^s^mdid^^^l-fxurE^r^eien^:B;mIe'(s)f^'tp|tiiSsoin,cf:
3 If, after the court.issues anqtice to show causeythe;attorney fails without.good cause to^ey^an-ofyer 6Tthe ,c6uit ;for; the-attdmey torundefgOiiTpliysical;drr menta Examination issued!
. ^erBi^eM^clProfe^6pCbde^kitibn^b53 a^wie^);Satfmlu^^apfe anSideM
aTevidenceiri'determiningwhethefQieattomeyrshouldben^
But the failure does'notdh itself warrant a transfer. (Seelrule S.l^.^B).)’

»

»

a

a

JT

-;2-

a

1

a

*

f

1-7^^

pfar*.

. rf

n

a

ft?

«

I •■

*

■an -i

c ■

m

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 169 of 196
000025

rGERJDIKlCATE-OFSERyiCE
m

■

m

i

[Rules Proc.>pfState Bar: Rule 5.27(B); Code Civ. ProCr. § iona^)]
I am a Court Specialist ®he®ate®FCourli6iCaIif6ffiia; iam^bve'riffle;age;oTeighieen:and
fno{ pWyfQJthU^iaitaro^if^:^aftuant
'
of San-Ffancisco. on May 16. '261'%? deposited a true copy of the following dodumerft(sj:;

K

:

AMENDED NOTICE TO SHOW.CAUSE RE: TRANSFER OF MF.MBERrTO
fINACTIVE ENROLLMENT STATUS UNDER BUSINESS ANITPROFESSIONS
CODE SECTION 6007,Subdivision (b)(3) [Rules Pfoc. of StatciBar, fu'io 5.T90,;et seq.J;
2Ni®lSE^;S:®;yS)^^
' ' “
"^
' " " “'

■

t

SraT^ied^^eiopeTOfcollecfionrand mMlihg’pnTHSBate'asT'oHpwsit

Si

I

by certified mail, No. 7T96 9008:9i;n :i007 3290. withrettlrh receipt requested, through
:the yriitcdiStates Pdstal Semce:at>San Francisco" .California, addressed-as foilowS: '

!

ft

*

^DANIEL EVERETT
iL-AW OFFICE OF DANIEL EVERETT
15 BOARDMSN PL'STE 2
'SAFJ’FI&NGlSfeOVP^Lj

r*
3

it

5

■

ft

h

{BBUftMSI*
c

■

■

;tA^0^C^t)^THAW i arWs;
i 00 BUSHST ST£ ,9181

i

a

iby:email,-addrcssedas:Tollows:
M

S^laf!afQmpe2a(SiHTbari£a~g6v

a

\

a

I'daniereveretl'^dameleverettrawicam.
fiiafSJaronslawrcom"
f

H

Sb^yinteroffibe m^lhftrou|iTa:feiTity;regu!ariy^.maif^meSSyTfte'StaieJBariGS California
jadairessca as3foHowrs;

E

«

P&SS5. ^OT^^SSne®cfi^5licFfahci&o
■

t

Ilhereby.certi‘fy:thaf fhe.foregoingfs^tme'gld
my 16,2019'.
"■ ''
-y (Tt-;

m

Mr 6- ;

. JlV
/Bemadette.MolinaT ' ’

a

«

JL

v

.Court Socialist:
estate Bar Court

I
•ft

ft

9
ft
X

m

*

j-»

•

■

rv « «r c --in fT «■>

ni^:;

ft

r

fca-st

r.*“ r-’* vtfTsr!Srr"esm '■ rT’

r

IV

>

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 171 of 196
y

000026

u'

mm

h

?

For Clerk's Use Only:

STATE BAR COURT OF CALIFORNIA
:

AUG 2 9 2019

HEARING DEPARTMENT
*

180 Howard St, 6th FU San Francisco, CA 94105
In the Matter of

STATE BAR COURT CLERK’S OFFICE
SAN FRANCISCO

Case No(s). SBC-19-TT-30212-YDR

j

i

*

i"

.t

i

DANIEL EVERETT
STATUS CONFERENCE ORDER

r
:* 1

State Bar No. 268967

r

APPEARANCES:
Office of Tritds by:
MARIA J. OROPEZA
E! In Person
□ Telephone
Q No Appearance

L

ii

Date: August 29.2019
Named Party by:
DANIEL EVERETT
[3 In Person
□ Telephone
□ No Appearance

S’—l

Time: 9 JO a.m.
Named Party’s Counsel by:
JONATHAN ARONS
|3 In Person
□ Telephone
□ No Appearance

*

PRETRIAL:

1

□ Further Status Conference:

1o
&

□ Telephonic

□ In person

<D

E<L)

[3 Other: Counsel for Respondent is to file and serve report from Dr. Gradman by September 5.2019. OCTC^
to file a further supplemental response to the Notice to Shown Cause by September 6,2019. Respondent1 s/d
Counsel to file response to OCTC’s supplemental response by September 20,2019. Court has denied
<£
Respondent’s Counsel’s request for a hearing at this time.
U
j

T

> .

L

V

i

*•

i

* r

i

0>

*
XI
i
i
J

>

H

<D
U

*

u>
-c

,/

IT IS SO ORDERED.
Dated: August

•/ *V*

E

3

±1 2019
*

; <L>

■

v

ftette D. Roland'-**’'" >—
uoge of the Sta&Bar Court

o
O

V*

■

I*

»
*

»:

■»

■

r

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 172 of 196
r,

000027

■

CERtIFiCATE OF SERVICE

•r

r

[Rules Proc. of State Bar; Rule 5.27(B); Code Civ. Proc., § 1013a(4)J
s

I am a Court Specialist of the State Bar Court of California. 1 am over the age of eighteen and
not a party to die within proceeding. Pursuant to standard court practice, in the City and County
of San Francisco, on August 29,2019,1 deposited a true copy of the following documents):

*

STATUS CONFERENCE ORDER
in a sealed envelope for collection and mailing on that date as follows:

r_

*

[3

by first-class mail, with postage thereon fully prepaid, through the United States Postal
Service at San Francisco, California, addressed as follows:
JONATHAN IRWIN ARONS
LAW OFC JONATHAN I ARONS
220 MONTGOMERY ST STE 1077
SAN FRANCISCO, CA 94104-3432
.

**

Vr

SiI

I

»

r

%

£3
.O
,o

■

by interoffice mail through afacility regularly maintained by the State Bar of California
addressed as follow:

r-

MARIA J. OROPEZA, Office of Chief Trial Counsel, San Francisco

Urn

Q*
_D
CO

1 hereby certify that the foregoing is true and correct Executed in San Francisco, California, on
August 29,2019.
C’ ■

s!-.
u-;

T

<u

"i

*

*

rir- -

(/Michael Biurreiro
Court Specialist
State Bar Coufft

r

>S
JO>
T5

*

<D
O
U
I-*-*

«

&

s

<L>

>r f

U
I'O

%

JS

r_V
I -

v?
V...
■
1

-

L
r.

r

*

9

i*-*

r ■

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 173 of 196
000028
»

j

a
E

For Clerics Uit Only:

STATE BAR COURT OF CALIFORNIA

■

p||

pQ

]

HEARING DEPARTMENT

SEP 16 206 )

;

180 Howard St., 6th Ft., San Francisco, CA 94105 , ,
In the Matter of:

j

STATE 0AR COURT CLERICS WJC8
iANWUMQltCO
Case No(s). SBC-1 9-TT-30212-YDR

DANIEL EVERETT
State Bar No. 268967

at

r

STATUS CONFERENCE ORDER
Date: September 13,2019

APPEARANCES:
Office of Trials by:
MARIA J. OROPEZA
IS In Person
O Telephone
O No Appearance

Named Party by:
DANIEL EVERETT
CD In Person
□ Telephone
K) No Appearance

Time: 4:30 p.m.

Named Party’s Counsel by:
JONATHAN I. ARONS
£x] In Person
l~l Telephone
□ No Appearance

TRIAL:
□ This matter is set for date(s) certain for trial on: Culpability/Discipline:
*
* •
PRETRIAL:
Further Status Conference:
□ In person
Q Telephonic
Calendar
Pretrial Conference:
Li In person
□ Telephonic
Pretrial Statement/ProposedExhibits Due___
days before Pretrial Conference pursuant to Rule 1223 and 1224,
Rules of Practice of The State Bar Court. The State Bar must use numbers to designate its exhibits beginning with 00l;and
Respondeht/Applicarit/Petitioner must use numbers beginning with 1001.

B

SETTLEMENT:
_
_ s
^
,. . ... r
LJ Counsel shall meet and confer in ■ person orby telephone and report on the possibility of compromise at the next
conference.
□ The parties .waive their right to have the settlement conference heard by a judge other than the trial judge.
CD Settlement Conference: Q In Person CD Telephonic_____
...'__ __________ _
An original and one copy of settlement position statements in letter forth are due five days priorto the settlement
conference.
' '
"
"
O Stipulation tobefiledby
•. ....
.. . ...... ..
REFERRAL:
LJ This matter is referred to’the State BarCourt’s Alternative Discipline Program. A status conference.is scheduled
for
at
with Judge
This will
be an Q In Person CD Telephonic status conference
j

■OTHER ORDERS:
Discovery Period Ends/Extended to:.^.
^
Motion of O Deputy Trial CounselO Respondent/Applicant/Petitioner;, CD Court for:
O Granted
Q Denied
LJ See .’’Other”, below.
& Other: -Counsel’s Response to the State Bar’s Supplemental Response is due September 23.2019. if Counsel is imahiito.file a Response, he is ordered.to file a"declaration stating, why-feng-unable-io complviwith the Court’s Order bV
September7 23.2019. .The Deputy Trial Counsel ipQrderoffVo deliver the 5. r^nonsgSi^Resnondent bv overnight mail or
by_messenger for delivery on September i 6.20m No hearing will be held in'this matterrx.
~
'
CD Service of this order is waived.
~^
:
r
”
//>

0

it is so ordered;

Dated: September

/3L-2019
\•

to

YVBTTED. ROLAND
Judms/pf the State Bar Court

»-

■

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 174 of 196
000029
■

*-i

t ■»

m ■
,c

CERTIFICATE OF SERVICE
1*-

[Rules Proc. of State Bar; Rule 5.27(B); Code Civ. Proc., § 1013a(4>]

4

*'x

I am a Court Specialist of the State Bar Court of California. I am over the age of eighteen and
not a party to die within proceeding. Pursuant to standard court practice, in the City and County
of SanFrancisco, on September 16,2019,1 deposited a true copy of ihe following document(s):

• r-c
STATUS CONFERENCE ORDER
in a sealed envelope for collection and mailing on that date as follows:
t

SI

-

by. first-class mail, with postage thereon fully prepaid, through the United States Postal
Service at San Francisco, California, addressed as follows:
LAW OFC JONATHAN I ARONS
220 MONTGOMERY ST STE 1077
SANFRANCISCO CA 94104-3432

□

*

’ r*. i

v

by fax transmission, at fax number
used.

No error was reported by the fax machine that I

by email, addressed as follows:
*

n

«f

Mafia.Oropeza@calbar.ca.gov

;

jia@afbnslaw.com

j

by irtterofficernail through a facility regularly maintained by the State Bar of California
addressed as follows:
MARIA J. OROPEZA,-Enforcement, San Francisco
I hereby certify that the foregoing is true and correct. Executed in San Francisco, California, on
September 16, 2019.
-■

Bernadette Molina
Court Specialist
State Bar Court *

w r m

i

*
*

i

i

%

i

»
i

■
r-----

— r.

4

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 176 of 196
000030

California Code, Business and Professions
Code - BPC § 6007
(a) When a licensee requires involuntary treatment pursuant to Article 6 (commencing
with Section 5300) of Chapter 2 of Division 5 of, or Part 2 (commencing with Section 6250) of
Division 6 of the Welfare and Institutions Code , or when under an order pursuant to Section
3051 , 3 i 06.5 , or 3152 of the Welfare and Institutions Code he or she has been placed in or
returned to inpatient status at the California Rehabilitation Center or its branches, or when he or
she has been determined insane or mentally incompetent and is confined for treatment or placed
on outpatient status pursuant to the Penal Code, or on account of his or her mental condition a
guardian or conservator, for his or her estate or person or both, has been appointed, the Board of
Trustees or an officer of the State Bar shall enroll the licensee as an inactive licensee.
The clerk of any court making an order containing any of the determinations or adjudications
referred to in the immediately preceding paragraph shall send a certified copy of that order to the
State Bar at the same time that the order is entered.
The clerk of any court with which is filed a notice of certification for intensive treatment
pursuant to Article 4 (commencing with Section 5250) of Chapter 2 of Division 5 ofthe Welfare
and Institutions Code , upon receipt of the notice, shall transmit a certified copy of it to the State
Bar.
The State Bar may procure a certified copy of any determination, order, adjudication,
appointment, or notice when the clerk concerned has failed to transmit one or when the
proceeding was had in a court other than a court of this state.
In the case of an enrollment pursuant to this subdivision, the State Bar shall terminate the
enrollment when the licensee has had the fact of his or her restoration to capacity judicially
determined, upon the licensee's release from inpatient status at the California Rehabilitation
Center or its branches pursuant to Section 3053,3109 , or 3151 of the Welfare and Institutions
Code , or upon the licensee's unconditional release from the medical facility pursuant to Section
5304 or 5305 ofthe Welfare and Institutions Code ; and on payment of all fees required.
When a licensee is placed in, returned to, or released from inpatient status at the California
Rehabilitation Center or its branches, or discharged from the narcotics treatment program, the
Director of Corrections or his or her designee shall transmit to the State Bar a certified notice
attesting to that fact.
(b) The State Bar Court shall also enroll a licensee of the State Bar as an inactive licensee in
each of the following cases:
(1) A licensee asserts a claim of insanity or mental incompetence in any pending action or
proceeding, alleging his or her inability to understand the nature of the action or proceeding or
inability to assist counsel in representation of the licensee.

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 177 of 196
000031

(2) The court makes an order assuming jurisdiction over the licensee's law practice, pursuant
to Section 6180.5 or 6190.3 .
(3) After notice and opportunity to be heard before the State Bar Court, the State Bar Court finds
that the licensee, because of mental infirmity or illness, or because of the habitual use of
intoxicants or drugs, is (i) unable or habitually fails to perform his or her duties or undertakings
competently, or (ii) unable to practice law without substantial threat of harm to the interests of
his or her clients or the public. No proceeding pursuant to this paragraph shall be instituted
unless the State Bar Court finds, after preliminary investigation, or during the course of a
disciplinary proceeding, that probable cause exists therefor. The determination of probable
cause is administrative in character and no notice or hearing is required.
In the case of an enrollment pursuant to this subdivision, the State Bar Court shall terminate the
enrollment upon proof that the facts found as to the licensee's disability no longer exist and on
payment of all fees required.
(c)(1) The State Bar Court may order the involuntary inactive enrollment of an attorney upon a
finding based on all the available evidence, including affidavits, that the attorney has not
complied with Section 6002.1 and cannot be located after reasonable investigation.
(2) The State Bar Court may order the involuntary inactive enrollment of an attorney if it finds,
based on all the available evidence, including affidavits:
(A) The attorney has caused or is causing substantial harm to the attorney's clients or the public.
(B) There is a reasonable probability that the chief trial counsel will prevail on the merits of the
underlying disciplinary matter, and that the attorney will be disbarred.
(3) In the case of an enrollment under paragraph (2), the underlying matter shall proceed on an
expedited basis.
(4) The State Bar Court shall order the involuntary inactive enrollment of an attorney upon the
filing of a recommendation of disbarment after hearing or default. For purposes of this section,
that attorney shall be placed on involuntary inactive enrollment regardless of the license status of
the attorney at the time.
(5) The State Bar Court shall order the involuntary inactive enrollment of an attorney who is
sentenced to incarceration for 90 days or more as a result of a criminal conviction for at least the
period of time in which the attorney is incarcerated.
(6) The State Bar Court shall order attorneys who are placed on inactive enrollment pursuant to
this subdivision to comply with Rule 9.20 of the California Rules of Court.
(7) The board shall formulate and adopt rules of procedure to implement this subdivision.

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 178 of 196
000032

In the case of an enrollment pursuant to this subdivision, the State Bar Court shall terminate the
involuntary inactive enrollment upon proof that the attorney's conduct no longer poses a
substantial threat of harm to the interests of the attorney's clients or the public or where an
attorney who could not be located proves compliance with Section 6002.1 .
(d)(1) The State Bar Court may order the involuntary inactive enrollment of an attorney for
violation of probation upon the occurrence of all of the following:
(A) The attorney is under a suspension order any portion of which has been stayed during a
period of probation.
(B) The State Bar Court finds that probation has been violated.
(C) The State Bar Court recommends to the Supreme Court that the attorney receive an actual
suspension on account of the probation violation or other disciplinary matter.
(2) The State Bar Court shall terminate an enrollment under this subdivision upon expiration of
a period equal to the period of stayed suspension in the probation matter, or until the State Bar
Court makes an order regarding the recommended actual suspension in the probation matter,
whichever occurs first.
(3) If the Supreme Court orders a period of actual suspension in the probation matter, any period
of involuntary inactive enrollment pursuant to this subdivision shall be credited against the
period of actual suspension ordered.
(e)(1) The State Bar Court shall order the involuntary, inactive enrollment of a licensee whose
default has been entered pursuant to the State Bar Rules of Procedure if both of the following
conditions are met:
(A) The notice was duly served pursuant to subdivision (c) of Section 6002.1 .
(B) The notice contained the following language at or near the beginning of the notice, in capital
letters:
IF YOU FAIL TO FILE AN ANSWER TO THIS NOTICE WITHIN THE TIME ALLOWED
BY STATE BAR RULES, INCLUDING EXTENSIONS, OR IF YOU FAIL TO APPEAR AT
THE STATE BAR COURT TRIAL, (1) YOUR DEFAULT SHALL BE ENTERED, (2) YOU
SHALL BE ENROLLED AS AN INVOLUNTARY INACTIVE LICENSEE OF THE STATE
BAR AND WILL NOT BE PERMITTED TO PRACTICE LAW UNLESS THE DEFAULT IS
SET ASIDE ON MOTION TIMELY MADE UNDER THE RULES OF PROCEDURE OF THE
STATE BAR, (3) YOU SHALL NOT BE PERMITTED TO PARTICIPATE FURTHER IN
THESE PROCEEDINGS UNLESS YOUR DEFAULT IS SET ASIDE, AND (4) YOU SHALL
BE SUBJECT TO ADDITIONAL DISCIPLINE.

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 179 of 196
000033

(2) The State Bar Court shall terminate the involuntary inactive enrollment of a licensee under
this subdivision when the licensee's default is set aside on motion timely made under the State
Bar Rules of Procedure or the disciplinary proceedings are completed.
(3) The enrollment under this subdivision is administrative in character and no hearing is
required.
(4) Upon the involuntary inactive enrollment of a licensee under this subdivision, the notice
required by subdi vision fb) of Section 6092.5 shall be promptly given.
(f) The pendency or determination of a proceeding or investigation provided for by this section
shall not abate or terminate a disciplinary investigation or proceeding except as required by the
facts and law in a particular case.
(g) No license fees shall accrue against the licensee during the period he or she is enrolled as an
inactive licensee pursuant to this section.
(h) The State Bar Court may order a full range of interim remedies or final discipline short of
involuntary inactive enrollment, including, but not limited to, conditions of probation following
final discipline, or directly ordered interim remedies, to restrict or supervise an attorney's
practice of law, as well as proceedings under subdivision (a), (b), (c), or (d), or under Section
6102 or 6190 . They may include restrictions as to scope of practice, monetary accounting
procedures, review of performance by probation or other monitors appointed by the board, or
such other measures as may be determined, after hearing, to protect present and future clients
from likely substantial harm. These restrictions may be imposed upon a showing as provided in
subdivision (c).

i

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 181 of 196
000034

i

Rules of Procedure
of the
State Bar of California

i

i

t

November 1,2020

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 182 of 196
000035
I

Rules of Procedure
of the
State Bar of California
With Amendments Adopted by the Board of Trustees (formerly Board of
Governors) Effective January 1,2011, with subsequent revisions

Title 5:

Discipline
Division 1

General Rules Case Processing

Division 2

Case Processing

Division 3

Review Department and Powers
Delegated by Supreme Court

Division 4

Involuntary Inactive Enrollment
Proceedings

Division 5

Probation Proceedings

Division 6

Special Proceedings

Division 7

Regulatory Proceedings

Title III:

General Provisions

Title IV:

Standards for Attorney Sanctions for
Professional Misconduct

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 183 of 196
000036

PREFACE
The Rules of Procedure of the State Bar of California are adopted by the Board of Trustees
(formerly Board of Governors) of the State Bar in order to facilitate and govern proceedings
conducted through the State Bar Court and otherwise. On September 22, 2010, the Board
approved amendments to the rules that govern procedures in the State Bar Court. The
amendments involve some substantive changes, as well as reordering and renumbering of the
rules to make them clearer, better organized and easier to read.
Effective January 1, 2011, the amended rules will apply to all pending and future matters filed in
the State Bar Court, except as to:
1.

Hearing Department proceedings in which the taking of testimony or the.offering of
evidence at trial has commenced;

2.

Review Department matters in which a request for review is filed prior to January 1,
2011; and

3. Any other particular proceeding pending as of the effective date in which the Court
orders the application of former rules based on a determination that injustice would
otherwise result.
The amended rules (rules 5.1 to 5.466) are found in Title 5 and conform to the new
organizational structure for all the Rules of the State Bar. The revised rules begin with the
number 5 (for Title 5), which is followed by a period and then a sequential number.

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 185 of 196
000037

(5)

notified of this motion; and whether the client would be substantially prejudiced
by denial of this motion. If feasible, the motion should be accompanied by client
declarations in support; and
whether the attorney has notified the Office of Trials of the intended motion, and
if so, when, how, and to whom.

Eff. January 1, 2011; Revised: January 25, 2019.
Division 4. Involuntary Inactive Enrollment Proceedings
Chapter 1. Bus. & Prof. Code § 6007(b)(1): insanity or Mental Incompetence
Rule 5.170 Nature of Proceeding
These rules apply to proceedings that involve, or may involve, an attorney's transfer to inactive
enrollment under Business and Professions Code § 6007(b)(1).
Eff. January 1,2011; Revised January 25,2019.
Rule 5.171 Beginning Proceeding
(A)

Initial Pleading. The Office of Chief Trial Counsel or any attorney may make a motion
to transfer an attorney to involuntary inactive enrollment accompanied by evidence
that the attorney has asserted a claim of insanity or mental incompetence as specified
in Business and Professions Code § 6007(b)(1). The Court may issue an order to show
cause if an attorney who is a party to a proceeding before the Court asserts a claim of
insanity or mental incompetence as specified in § 6007(b)(1).

(B)

Service. The motion or order to show cause must be served on all parties under rule
5.25.

Eff. January 1,2011; Revised: January 25,2019.
Rule 5.172 Proceedings on Motion; Actions Taken by Court
A motion under these rules is governed by the rules applicable to motions.
(A)

Motion Granted. If the evidence received shows clearly and convincingly that the
order is appropriate under Business and Professions Code § 6007(b)(1), the court
may issue an order, without further notice or hearing, enrolling the attorney as an
inactive attorney.

(B)

Motion Denied. If the evidence received does not show clearly and convincingly that
an order of involuntary inactive enrollment is authorized by § 6007(b)(1), the court
may:
issue an order denying the motion; or
(1)

86

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 186 of 196
000038 .

(2)

conduct further proceedings to determine whether the attorney should be
enrolled as an inactive attorney.

Eff. January 1, 2011; Revised: January 25, 2019.
Rule 5.173 Proceedings on Order to Show Cause
If the Court issues an order to show cause, the parties have 10 days from the date the order is
served to file and serve responses, unless otherwise ordered. The Court will act after the
responses are filed or the time to file expires.
(A)

Order for Inactive Enrollment. If the evidence received shows clearly and convincingly
that the order is appropriate under Business and Professions Code § 6007(b)(1), the
Court may issue an order, without a hearing, enrolling the attorney as an inactive
attorney.

(B)

Refusal of Request for Order. If the evidence received does not show clearly and
convincingly that an order of involuntary inactive enrollment would be authorized by
§ 6007(b)(1), the Court may:
(1)
decline to order the attorney's involuntary inactive enrollment; or
(2)
conduct further proceedings to determine whether the attorney should be
enrolled as an inactive attorney.

Eff. January 1, 2011; Revised: January 25,2019.
Rule 5.174 Representation by Counsel
(A)

Appointment of Counsel. If further proceedings are conducted under rules 5.172 or
5.173 and the attorney is not represented by counsel, the Court may appoint counsel
without cost to the attorney. By court order, appointed counsel will be compensated
for reasonable expenses and fees for work done on matters before the Court or for
seeking review from the California Supreme Court of a Review Department decision
ordering or upholding an order of inactive enrollment. Compensation will be at an
hourly rate fixed by the Executive Committee. The Court will determine the
reasonableness of counsel's fees and expenses.

(B)

Copies of Record. An appointed counsel may ask the Clerk to prepare and furnish,
free of charge, copies of compact disks, audiotapes, or transcripts of all or any part of
any relevant State Bar Court proceeding involving the attorney.

(C)

Attorney's Failure or Inability to Assist Counsel. The attorney's failure or inability to
assist counsel is not in itself a reason to abate the Business and Professions Code §
6007(b)(1) proceeding, or a basis for a continuance, or grounds for a motion by
counsel to be relieved as attorney of record in proceedings under these rules.

87

Tr
Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 187 of 196
000039

(D)

Authority to File Motions. Appointed counsel have the authority to file motions to
abate or continue other pending State Bar Court proceedings involving the same
attorney, and will be compensated for doing so as provided in paragraph (A).

(E)

Review of Award. The counsel for whom the Court orders an award of costs or fees or
both may file a petition under rule 5.150 for review of the hearing judge's
determination of the award's amount within 15 days after the order is served. The
action of the Review Department on the petition is the State Bar's final decision on
the award's amount.

Eff. January 1,2011; Revised: January 25,2019.
Rule 5.175 Effective Date
An order of involuntary inactive enrollment under Business and Professions Code § 6007(b)(1)
takes effect on the earlier of personal service or three days after service by mail, unless the Court
for good cause orders it to take effect on another date.
Rule 5.176 Review
An order granting or denying involuntary inactive enrollment under Business and Professions
Code § 6007(b)(1) is reviewable under rule 5.150.
Rule 5.177 Inapplicable Rules
The following rules do not apply to proceedings on a motion or order to show cause under
Business and Professions Code § 6007(b)(1):
(A)

General. Rules that by their terms apply only to disciplinary proceedings or to other
specific proceedings, and

(B)

Specific. Rules 5.65-5.71 (discovery); rules 5.80-5.100 (default; obligation to appear at
trial); rules 5.105-5.108 (admission of certain evidence); and rules 5.151-5.157
(review).

88

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 188 of 196
000040

Chapter 2. Bus. & Prof. Code § 6007(b)(2):
Assumption of Jurisdiction Over Law Practice
:

Rule 5.180 Nature of Proceeding

These rules apply to proceedings that involve, or may involve, an attorney's transfer to inactive
enrollment under Business and Professions Code § 6007(b)(2).
Eff. January 1, 2011; Revised: January 25, 2019.
Rule 5.181 Beginning Proceeding
(A)

Initial Pleading. The Office of Chief Trial Counsel must file a motion for involuntary
inactive enrollment, supported by evidence that a superior court has issued an order
assuming jurisdiction over an attorney's law practice under Business and Professions
Code §6180 or § 6190.

(B)

Service. The motion must be served on the attorney under rule 5.25. Eff. January 1,

2011; Revised: January 25, 2019.
Rule 5.182 Proceedings on Motion
A motion under these rules is governed by the rules applicable to motions.
(A)

Motion Granted. If the evidence received shows clearly and convincingly that the
order is appropriate under Business and Professions Code § 6007(b)(2), the Court
may issue an order, without further notice or hearing, enrolling the attorney as an
inactive attorney, and subject to any appropriate exceptions specified in the court
order assuming jurisdiction over the attorney's law practice.

(B)

Motion Denied, if the evidence received does not show clearly and convincingly that
an order of involuntary inactive enrollment is authorized by § 6007(b)(2), the Court
may:
issue an order denying the motion; or
(1)
conduct further proceedings to determine whether the attorney should be
(2)
enrolled as an inactive attorney. The issues in anyfurther proceedings are
limited to determining whether clear and convincing evidence shows that a
superior court has issued an order assuming jurisdiction over an attorney's law
practice under Business and Professions Code § 6180 or § 6190, and if so,
whether such order remains in effect and provides for any exceptions.

Eff. January 1,2011; Revised: January 25, 2019.

89

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 189 of 196
'

000041

Rule 5.183 Order of Involuntary Inactive Enrollment
The Court may not impose interim remedies under Business and Professions Code § 6007(h) in
lieu of inactive enrollment in ruling on a motion under these rules. But when necessary to
effectuate any exceptions in a superior court's order, the Court may make exceptions to the
order of inactive enrollment.
Rule 5.184 Effective Date
An order of involuntary inactive enrollment under Business and Professions Code § 6007(b)(2)
takes effect on the earlier of personal service or three days after service by mail, unless the Court
for good cause orders it to take effect on another date. .
Rule 5.185 Review
An order granting or denying a motion for involuntary inactive enrollment under Business and
Professions Code § 6007(b)(2) is reviewable under rule 5.150.
Rule 5.186 Inapplicable Rules
The following rules do not apply to proceedings on a motion under Business and Professions
Code § 6007(b)(2):
(A)
(B)

General. Rules that by their terms apply only to disciplinary proceedings or to other
specific proceedings, and
Specific. Rules 5.65-5.71 (discovery); rules 5.80-5.100 (default; obligation to appear at
trial); rules 5.105-5.108 (admission of certain evidence); and rules 5.151-5.157
(review).
Chapter 3. Bus. & Prof. Code § 6007(b)(3): Mental Infirmity, Illness, or
Habitual Use of Intoxicants

Rule 5.190 Nature of Proceeding
These rules apply to proceedings that involve, or may involve, an attorney's transfer to inactive
enrollment under Business and Professions Code § 6007(b)(3).
Eff. January 1,2011; Revised: January 25, 2019.
Rule 5.191 Beginning Proceeding
(A)

Probable Cause Required. To begin a proceeding, the Court must determine that
there is probable cause and issue a notice to show cause. Because the determination
is administrative in character, no notice or hearing is required.

90

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 190 of 196
000042

(B)

Motion to Show Cause.
(1)
The Court may determine on its own motion, without notice or hearing, that
probable cause exists to issue a notice to show cause; or
(2)
Any party may file a motion asking the Court to issue a notice to show cause.
The motion must be served on all opposing parties under rule 5.25. Unless
ordered by the court, no response to the motion may be filed.

(C)

Probable Cause Hearing. The Court may order a hearing to determine whether a
notice to show cause should issue if, in the Court's opinion, it will materially
contribute to determining whether probable cause exists. All hearings will be informal.
Later proceedings will not be invalidated or otherwise prejudiced if a hearing is not
held.

(D)

Notice to Show Cause. When a notice to show cause is issued under this rule:
the Court will promptly appoint counsel under rule 5.192 if the attorney is not
(1)
represented by counsel;
the Clerk will promptly serve the notice to show cause on all parties under
(2)
rule 5.25;
each party will file and serve a response to the notice to show cause within 20
(3)
days from the later of:
the date that the notice to show cause is served, or
(a)
the date that the order appointing counsel is served (if counsel is
(b)
appointed).

(E)

Judicial Disqualification. Except as provided under rule 5.46, the judge who conducts
the probable cause hearing will not be disqualified from conducting the hearing on the
merits.

Eff. January 1,2011; Revised: January 25, 2019.
Rule 5.192 Representation by Counsel
(A)

Appointment of Counsel. An attorney must be represented by counsel by the issuance
date of the notice to show cause. If the attorney is not represented, the Court must
appoint counsel without cost to the attorney. By court order, appointed counsel will
be compensated for reasonable expenses and fees for work done on matters before
the Court or for seeking review from the California Supreme Court of a Review
Department decision ordering or upholding an order of inactive enrollment.
Compensation will be at an hourly rate fixed by the Executive Committee. The Court
will determine the reasonableness of counsel's fees and expenses.

(B)

Copies of Record. An appointed counsel may ask the Clerk to prepare and furnish, free
of charge, copies of tapes or transcripts of all or any part of any relevant State

91

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 191 of 196
000043

Bar Court proceeding involving the attorney, including any hearing held under rule
5.191(C).
(C)

Attorney's Failure or Inability to Assist Counsel. The attorney's failure or inability to
assist counsel is not in itself a reason to abate the Business and Professions Code §
6007(b)(3) proceeding, or a basis for a continuance, or grounds for a motion by
counsel to be relieved as attorney of record in proceedings under these rules.

(D)

Authority to File Motions. Appointed counsel have the authority to file motions to
abate or continue other pending State Bar Court proceedings involving the same
attorney, and will be compensated for doing so as provided in subsection (A).

(E)

Review of Award. The counsel for whom the Court orders an award of costs or fees or
both may file a petition under rule 5.150 for review of the hearing judge's
determination of the award's amount within 15 days after the order is served. The
action of the Review Department on the petition is the State Bar's final decision on
the award's amount.

Eff. January 1, 2011; Revised: January 25, 2019.
Rule 5.193 Failure to Comply with Order for Physical or Mental Examination
(A)

Failure as Probable Cause. If an attorney fails to obey an order for physical or mental
examination issued under Business and Professions Code § 6053 and rule
5.68 of these rules, that fact may constitute probable cause to issue a notice to show
cause.
'

(B)

Failure as Evidence. After the Court issues a notice to show cause, if the attorney fails
without good cause to obey an order of the Court for the attorney to undergo a
physical or mental examination issued under § 6053 and rule 5.68 of these rules, that
failure may be considered as evidence in determining whether the attorney should be
transferred to inactive enrollment. But the failure does not in itself warrant a transfer.

Eff. January 1,2011; Revised: January 25, 2019.
Rule 5.194 Stipulation for Transfer to Inactive Enrollment
(A)

Binding Effect. Subject to the Court's approval, the parties may stipulate to a-an
attorney's transfer to inactive enrollment. The stipulation will be binding on the
parties unless the Court rejects it or, for good cause, relieves the parties from the
binding effect.

(B)

Contents of Stipulation, if no finding of probable cause has been made, the
stipulation will include a waiver of the requirement for a finding of probable cause
and will include the following statements:
92

!

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 192 of 196
000044

(1)
(2)
(3)

(4)

a statement about the condition that is the basis for the transfer to inactive
enrollment;
that the attorney is unable to practice law competently or without danger to
the interests of the attorney's clients or to the public;
that the attorney understands that if the stipulation is approved, the attorney
will not be allowed to practice law until the attorney petitions for transfer to
active enrollment, and the petition is granted; and
that the attorney understands that transfer to inactive enrollment is grounds
for the superior court to assume jurisdiction over the attorney's practice.

(C)

Signing the Stipulation. The attorney, the attorney's counsel of record, and the deputy
trial counsel must sign the stipulation. If the attorney has no counsel of record, the
Court will appoint counsel under rule 5.192, who will review and approve the
stipulation before it is submitted to the hearing judge.

(D)

Approval of Stipulation. An order approving a stipulation will specify the effective
date of the inactive enrollment. If no date is specified, the inactive enrollment takes
effect on the earlier of personal service or three days after service by mail of the
order.

Eff. January 1,2011; Revised: January 25, 2019.
Rule 5.195 Hearing on Merits
(A)

Time of Hearing. If a hearing is ordered, it will be held as soon as practicable after the
notice to show cause is issued. Time will be allowed to appoint counsel, to prepare a
defense, and to complete appropriate discovery or a physical or a mental
examination.

(B)

Notice. The Clerk must serve notice of the hearing on the attorney, the attorney's
counsel, and the deputy trial counsel at least 30 days before the hearing date.

(C)

Exhibits and Testimony. Exhibits and testimony from the probable cause hearing will
be admissible in the hearing on the merits if they are relevant and material to the
issues. But:
any portion of an exhibit or testimony that would be inadmissible if offered for
(1)
the first time at the hearing on the merits may be objected to; and
if prior testimony is offered, the party offering the testimony must make the
(2)
witness available to testify at the hearing on the merits. Either party may elicit
additional direct testimony to supplement the prior testimony. The witness
may be cross-examined by the opposing party.

Eff. January 1,2011; Revised: January 25, 2019.

93
i

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 193 of 196
000045

Rule 5.196 Decision
(A)

Inactive Enrollment. If the Court finds that clear and convincing evidence warrants
involuntary inactive enrollment under Business and Professions Code § 6007(b)(3), it
will enroll the attorney as an inactive attorney. The Court will also make appropriate
findings about the attorney's ability to conduct or assist in defending himself or
herself in any disciplinary proceedings.

(B)

Dismissal. If the evidence is insufficient, the Court will dismiss the proceeding.
Unless otherwise ordered for good cause, the dismissal will be with prejudice to
starting a new proceeding based solely on the facts alleged in the dismissed
proceeding, but without prejudice to starting a new proceeding based on additional or
different facts.

Eff. January 1,2011; Revised: January 25, 2019.
Rule 5.197 Effective Date
An order of involuntary inactive enrollment under Business and Professions Code § 6007(b)(3)
takes effect on the earlier of personal service or three days after service by mail, unless the Court
for good cause orders it to take effect on another date.
Rule 5.198 Review
An order granting or denying involuntary inactive enrollment under Business and Professions
Code § 6007(b)(3) is reviewable under rule 5.150.
Rule 5.199 Inapplicable Rules
The following rules do not apply in a proceeding under Business and Professions Code
§ 6007(b)(3):
(A)

General. Rules that by their terms apply only to disciplinary proceedings or to other
specific proceedings, and

(B)

Specific. Rules 5.80-5.100 (default; obligation to appear at trial) and rules 5.1055.108 (admission of certain evidence).

94

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 194 of 196
000046

Chapter 4. Bus. & Prof. Code § 6007(b):
Transfer from Inactive to Active Enrollment
Rule 5.205 Petition for Transfer to Active Enrollment
An attorney who was transferred to inactive enrollment under Business and Professions Code §
6007(b) may petition to terminate the inactive order, with or without interim remedies. The
petition must be verified, and must state the facts alleged to warrant the termination of the
order. The petition must be addressed to the Hearing Department, filed with the Clerk, and
served on the Office of Chief Trial Counsel under rule 5.25.
Eff. January 1,2011; Revised: January 25,2019.
Rule 5.206 Medical and Hospital Records
The attorney must authorize the State Bar to examine and copy medical, hospital, and related
records relevant to the attorney's original mental infirmity, illness, or addiction, and related to
the attorney's present condition. The authorizations must be written and attached to the
petition.
Eff. January 1,2011; Revised: January 25, 2019.
Rule 5.207 Stipulation for Transfer to Active Enrollment
(A)

Binding Effect. Subject to the Court's approval, the parties may stipulate to an
attorney's transfer to active enrollment. The stipulation will be binding on the parties
unless the Court rejects it or, for good cause, relieves the parties from the binding
effect.

(B)

Contents of Stipulation. The stipulation must include the following statements:
(1)
the condition that was the basis for the transfer to inactive enrollment no
longer exists;
(2)
the attorney is now able to practice law competently and without danger to
the interests of the attorney's clients or to the public; and
(3)
the attorney understands that the attorney will not be allowed to practice law
until the Court approves the stipulation.

(C)

Signing the Stipulation. The attorney, the attorney's counsel of record (if any), and the
deputy trial counsel on behalf of the State Bar must sign the stipulation.

Eff. January 1,2011; Revised: January 25, 2019.

95

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 195 of 196
000047

Rule 5.208 Hearing on Petition
(A)

Requesting Hearing. If the attorney seeks a hearing on the petition, the petition must
include a request for a hearing. Whether or not the attorney has requested a hearing,
the deputy trial counsel may request a hearing; such request must be filed within 20
days after service of the petition.

(B)

Order for Hearing. The Court may order a hearing if it will materially contribute to the
Court's determining whether a basis for the attorney's involuntary inactive enrollment
still exists. The hearing will be held as soon as practicable.

(C)

Notice. The Clerk must serve notice of the hearing on the attorney, the attorney's
counsel (if any), and the deputy trial counsel at least 20 days before the hearing date,
unless a continuance is granted for good cause shown.

Eff. January 1, 2011; Revised: January 25,2019.
Rule 5.209 Decision
The decision is effective when served unless otherwise ordered by the Court.
(A)

Petition Granted. If the Court finds by clear and convincing evidence that there is no
longer a basis for the attorney's involuntary inactive enrollment, it may grant the
petition and terminate the order of inactive enrollment.

(B)

Interim Remedies. If the Court finds by clear and convincing evidence that the change
in the attorney's condition makes interim remedies sufficient to protect the attorney's
clients and the public, it may impose interim remedies in lieu of inactive enrollment.

(C)

Petition Denied. If the Court finds inadequate change in the attorney's condition, it
may deny the petition.

Eff. January 1, 2011; Revised: January 25,2019.
Rule 5.210 Transfer to Active Status
An attorney's transfer to active enrollment does not revoke any suspension imposed on the
attorney for any reason, or override any other independent restriction that may exist regarding
the attorney's right to practice law.
Eff. January 1, 2011; Revised: January 25, 2019.

96

Case: 20-16502, 01/12/2021, ID: 11961603, DktEntry: 13, Page 196 of 196
000048

Rule 5.211 Review
An order granting or denying a petition under these rules is reviewable under rule 5.150.
Rule 5.212 Inapplicable Rules
The following rules do not apply in a proceeding for transfer to active enrollment:
(A)

General. Rules that by their terms apply only to disciplinary proceedings or to other
specific proceedings, and

(B)

Specific. Rules 5.80-5.100 {default; obligation to appear at trial); rules 5.105-5.108
(admission of certain evidence); and rules 5.151-5.157 (review).
Chapter 5. Bus. & Prof. Code § 6007(c)(1):
Failure to Maintain Address of Record

Rule 5.215 Nature of Proceeding
These rules apply to proceedings under Business and Professions Code § 6007(c)(1) authorizing
the involuntary transfer of an attorney to inactive enrollment upon a finding that the attorney
has not complied with Business and Professions Code § 6002.1 and cannot be located after
reasonable investigation.
Eff. January 1, 2011; Revised: January 25,2019.
Rule 5.216 Issues
i

The issues in a proceeding under these rules are limited to whether the attorney has complied
with § 6002.1 and whether the attorney can be located after reasonable investigation.
Eff. January 1,2011; Revised: January 25, 2019.
Rule 5.217 Application for Involuntary Inactive Enrollment
To begin a proceeding, the Office of Chief Trial Counsel will file with the Clerk a verified
application with supporting documents. The application must state with particularity facts
showing that the attorney has failed to comply with Business and Professions Code § 6002.1 and
that the attorney cannot be located after reasonable investigation. The application must be
served under rule 5.25.
Eff. January 1,2011; Revised: January 25, 2019.

97

f

exhibit C
000049

12
1 that will be filed by September the 20th, as well as the
2 doctor's report that I expect to have from Doctor Gradman no
3 later than September the 5th.
4

As to the gastroenterologist, if you are unable to

5 locate a gastroenterologist to evaluate Mr. Everett, then I
6 will base my evaluation of Mr. Everett's condition on his
7 statements made regarding his condition in either matters
8 where he's represented clients or he's represented himself
9 here.
10

MR. ARONS:

Your Honor, I would request a hearing,

THE COURT:

And what's the basis for your request

11 please.
12

13 for a hearing?
14

I3
:3
(3

U

MR. ARONS:

5

Because a brief doesn't allow Mr.-

o
:h

15 Everett sufficient opportunity to explain the background for
16 his request for accommodations, some of which were granted,
17 some of which were not, and the various representations made

C3
<

O

18 by him regarding his medical condition to various courts, as
>
19 well as to this Court, and so I would request a hearing, so
20 that we could further explore that.
21

THE COURT:

22 be necessary.

o
>
o
0
o

■* M

I don't see that a hearing is going to

I'll take'your request under submission.

As

13V
3

23 you know, this matter, the 0 case — actually, both 0 cases

:3
C
<3

24 have been pending for some time, because, for various

C5

25 reasons, Mr. Everett has found a reason not to go forward.

Briggs Reporting Company, Inc.

000050

exhibit C
13
1

When I say for a "period of time," I'm talking

2 about several years.

So I think that if there is anything

3 that Mr. Everett wants to argue, and wants this Court to
4 consider in connection with this TT matter, then he needs to
5 put it in his briefs, because the Court at this point is
6 unlikely to go forward with a hearing.
7

For the last two years — actually, has it been

8 three years? -- I don't have my 0 file in front of me, but I
9 think it's actually been three years — there has been one
10 reason.or another that Mr. Everett has had a reason where a
11 hearing has not gone forward.
12

So I'm not inclined to order a hearing.

17

MR. ARONS:

If I

:3
o
13 change my mind, I will definitely ensure that a minute order O
o
14 is provided to the parties advising of that decision.
So
3
o
' H
15 I'm giving you a full opportunity to brief any aspect of the
C3
16 issues before the Court on this TT matter.
Your Honor, you talk about reasons

18 that he's given as though somehow those are not appropriate.
19

THE COURT

I didn't say that.

20

MR. ARONS

But that's the implication.

21

THE COURT

I didn't say that.

24 years.

Am I right?

^
^3
• ’

What I said is

<>

:-

15O

I believe it's three

I think it's two or three years.

^

O

22 that, for multiple reasons, the hearing has not gone
23 forward, over the last three years.

O

I

25 believe it's been three years.

Briggs Reporting Company, Inc.

2
:3
O

n

000051

exhibit C
14
1

Either way, whether it's two years or three years,

2 I think you, as seasoned' counsel, will acknowledge it is
3 extraordinary for a disciplinary proceeding to not have been
4 addressed in that period of time, and there have been
5 various reasons for it not going forward.
6

So I'm not inclined to go ahead and set a hearing,

7 especially when the parties have been given a full
8 opportunity to obtain the advice and the evaluations and the
9 opinions of medical professionals, and to address that, as
10 well as to address Mr. Everett's conduct over the last few
11 years as it relates to this issue.
Your Honor, as counsel who has only

i::3

13 been appointed in this in the last couple of months, I do

O

12

MR. ARONS:

(5
•>

14 not have information regarding those previous matters.

In

15 order to more fully represent his interests with regard to
16 this TT matter, I need a lot more time than three weeks to
17 prepare something, then, if we're not going to get a

3
C3

O
o

18 hearing.
-J3

19

I anticipated that, at the end of that, I would

o
20 get a hearing, which would take place 30 days out from that, *;3
21 so that I would have sufficient time to delve into these

<j
<j
! H

22 past requests for continuances, or what other reasons Mr.

s:
a

23 Everett has stated as his inability to go forward with

:3
o
5

24 various hearings in the past.

I'm not privy to that

3

n

25 information at this time, so I need opportunity to do that.

Briggs Reporting Company, Inc.

i

■

000052

18
1

CERTIFICATION OF TRANSCRIBER

2

I, Holly Steinhauer, do hereby certify that the

3 foregoing 17-page transcript of proceedings, recorded by
4 digital recording, represents a true and accurate transcript
R

5 of the hearing in the matter of Daniel Everett,, Esq*, held
6 on August 29, 2019.
7
8

Date

/

9
10
11
t:

12

P
O
U

13

<D

£<u

14

i

i-i

Oh

15

p

16

<
U

17

<D

_C

18
-a
a>

19

>

a>
o
<u
t-r

20

21

c
22

£
p
o
o

23

O

24
25

exhibit C
Briggs Reporting Company, Inc.

ic.

'■ i

000053

l
2
3
4
5

PROOF OF SERVICE
(CCP §1013a, 2015.5)
I, the undersigned, declare as follows:
I am employed in the City and County of San Francisco, State of
California; I am over the age of eighteen years and AM a party to the
within entitled action; my business address is 15 Boardman Place #2,
94103.
On this date, I caused to be served a true copy of the attached document(s): petition

for writ of certiorari and appendix

6

& IFP request form &'Motion to file under seal
7
8
9
10
li
12
13
14
15

On parties named below, addressed as follows:
STATE BAR OF CALIFORNIA
180 HOWARD STREET, SAN FRANCISCO, CA 94103
James chang 180 HOWARD STREET, SAN FRANCISCO, CA CALIFORNIA SUPREME
COURT 350 MCALISTER STREET, SAN FRANCISCO CA 94103 & I DELIVERED A
COPY TO "BESTMESSENGER COURRIER SERVICE" 1513 P STREET, NW # 200,
WASHINGTON DC, 2005, WITH SPECIFIC INSTRUCTIONS TO DELIVER THE ABOVE
INDICATED DOCUMENTS WITHIN 3 CALENDAR DAYS FROM RECEIPT.
dispatch@bestmessenger.net

16
17
18
19
20
21
22
23

(x )
BY MAIL:
I placed said documents in a sealed envelope, with the
appropriate postage thereon fully prepaid for first class mail, for collection and
mailing at San Francisco, California, following ordinary business practices.
(X)
BY PERSONAL SERVICE:
I caused each such envelope to be delivered by hand to
the number indicated after the address noted above.
,X,
BY FACSIMILE/EMAIL:
I caused the said document to be transmitted by EMAIL
(*)
to the EMAIL ADDRESS indicated after the address noted above for the courier
service.

I declare under penalty of perjury under the laws of the State
of California that the foregoing is true and correct.
Executed on JUNE 27 2021 at SAN FRANCISCO, California.
/S/Daniel Everett
DANIEL EVERETT, Esq. PRO SE

24
25
26
27
28

Proof of service

Page 1

